                           Evaluation Report




                The SBA’s Portfolio Risk Management Program
                            Can be Strengthened




July 02, 2013                                            Report No. 13-17
                                             U.S. Small Business Administration
                                                 Office of Inspector General
                                                   Washington, D.C. 20416



                                                                                  Report Transmittal
                                                                                      Report No. 13-17


DATE: July 02, 2013
TO:     Jeanne A. Hulit, Associate Administrator for Capital Access

        Brent Ciurlino, Director of Credit Risk Management

        Stephen W. Kucharski, Director of Performance and Systems Management


SUBJECT: The SBA’s Portfolio Risk Management Program Can be Strengthened
This report presents the results of our evaluation, Review of the Small Business Administration’s Loan Data.
The evaluation was designed to (1) identify high-risk audit areas and potential fraud within the Small Business
Administration’s (SBA or the Agency) loan programs in order to drive future audit and investigative work; and
(2) identify loan program, portfolio, and data reliability issues warranting attention by the Agency.

While conducting the evaluation and discussing our analysis and results with Agency officials, we questioned
whether the Agency had established a program that analyzed risk across its $103 billion portfolio. Therefore, we
developed a reporting objective that sought to determine if the Agency had developed a portfolio risk-
management program that sufficiently monitored and addressed risk across lines of business, participating lend-
ers, and the overall portfolio. We determined that the SBA had not implemented a program or process to effec-
tively monitor risk in its loan portfolio. Additionally, the SBA had not developed a policy to ensure identified
risks were addressed. We believe that an established portfolio risk-management program could help the Agency
achieve a better balance between the need to make capital available to small businesses while mitigating risk for
borrowers and taxpayers.

We request that you provide your management decision for each recommendation on the attached SBA form
1824, Recommendation Action Sheet, by August 01, 2013. Your decision should identify the specific actions taken
or planned for each recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access during this evaluation. Please direct
any questions to me at (202) 205-7390 or Terry Settle, Director, Credit Programs Group, (703) 487-9940.
                                                       ***

/s/
John K. Needham
Assistant Inspector General for Auditing
Evaluation Report
Table of Contents

Highlights ............................................................................................................................................... 3

Introduction ........................................................................................................................................... 4

Background ............................................................................................................................................ 4

Overall Results ....................................................................................................................................... 6

Finding: The SBA’s Portfolio Risk-Management Program Can Be Strengthened ............................ 6

Conclusion ............................................................................................................................................ 10

Recommendations ................................................................................................................................ 10

Agency Comments & OIG Response…………………………………………………………………………………….……….11

Appendix I: Scope & Methodology ...................................................................................................... 13

Appendix II: High Volume Franchises ................................................................................................ 14

Appendix III: Agency Comments………………………………………………………………………………………………….15




                                                                                  2
                           E XE C U T I V E S U MM A R Y                                           Report 13-17
                                                                                                   July 02, 2013

                           The SBA’s Portfolio Risk Management
                           Program can be strengthened


What the OIG Reviewed                                          and loss rates over 16-percent. We determined that
We performed analyses of the SBA’s 7(a) loan                   over a seven-year period from 2002 to 2009, loans to
portfolio data to (1) identify high-risk audit areas and       these five industries resulted in 4,415 defaults and
potential fraud within the SBA’s loan programs; and            approximately $150 million in SBA charge-offs.
(2) identify loan program, portfolio, and data
reliability issues warranting attention by the Agency.         According to SBA officials, the Agency had not
Additionally, we conducted interviews with Agency              implemented a program or process to monitor risk in
officials to present our analyses and determine the            its portfolio because the SBA had traditionally focused
existing controls used to mitigate risk across the             on loan approval volume and loss rates to evaluate
SBA’s $103 billion guaranteed loan portfolio. Finally,         program performance with risk being assessed at the
we reviewed the SBA’s FY 2011 – 2016 Strategic Plan            lender level. The SBA, therefore, did not evaluate its
and mission statements for offices responsible for             loan portfolio in terms of the financial and mission
managing the 7(a) loan program and its risks.                  risks. For example, the SBA did not monitor portfolio
                                                               segments to identify risk based on default statistics.
What the OIG Found                                             Our limited analysis showed that the SBA continued to
In the course of our review, we determined that the            guarantee loans to high-risk franchises and industries
SBA had not implemented a program or process to                without monitoring risks, and where necessary,
effectively monitor risk in its loan portfolio.                implementing controls to mitigate the risks.
Additionally, the SBA had not developed a policy to
ensure that identified risks were addressed. We                OIG Recommendations
conducted four separate meetings with key senior               We recommended that the Office of Capital Access:
officials in the Office of Capital Access (OCA) to             1) Implement a portfolio risk-management program
discuss the results of the analyses presented in this          that analyzes risk across portfolio segments; 2) Use
report. During these meetings, the SBA officials               data from the portfolio risk-management program to
informed us and corroborated that there had been no            support risk-based decisions in its loan programs; and
consistent risk analysis of the portfolio and the              3) Develop a process within the portfolio risk-
Agency had not developed a framework or process                management program to ensure additional controls
for portfolio risk management. In August 2012, when            are implemented to mitigate identified risks where
our evaluation was ongoing, the Agency developed a             necessary.    The Agency agreed with all of our
formal plan to manage program credit risk, monitor             recommendations and stated it had taken steps to
lender performance, and enforce lender program                 address many of our concerns.
requirements. The SBA has not yet implemented this
plan.                                                          Actions Taken
                                                               In August 2012, the SBA drafted an Annual Audit Plan
During our review, we performed limited analysis of            Framework designed to address risk across all of the
franchise and industry loan data, which highlighted            Agency’s lending platforms. The plan, which was
the types of risks that can be identified with a robust        recently finalized, requires analyses designed to
portfolio risk-management program. Our limited                 provide a comprehensive view of the SBA’s overall
analysis identified three high-volume franchises with          portfolio by lender, industry, delivery method (i.e. type
historical default rates of at least 46-percent, default       of loan program), geography, franchise, and other
values over 38-percent and loss rates over 18-percent.         components. Additionally, in November 2012, the
We determined that over the 2002-2009 period that              Agency established the Office of Performance and
we reviewed, the Agency disbursed nearly 1,000 loans           Systems Management, which, along with the Office of
to these three franchises, totaling $199 million. Of           Credit Risk Management, is responsible for managing
these loans, 501, representing $84 million in Agency           portfolio risk. We believe these actions represent the
guaranties, defaulted. We also identified five high-           first steps towards establishing a program that will
volume retail industries with historical default rates         monitor portfolio risks, and where necessary, address
of at least 40-percent, default values over 30-percent         the types of portfolio risks identified in our evaluation.

                                                           3
Introduction


This report presents the results of our evaluation of              Background
the Small Business Administration’s Loan Data. The
evaluation was designed to (1) identify high-risk audit            Prior OIG audits and investigations of SBA loans have
areas and potential fraud within the Small Business                identified that specific industries and loan attributes
Administration’s (SBA or the Agency) loan programs                 pose a higher risk to the SBA. A 2004 performance
in order to drive future audit and investigative work;             audit conducted by the OIG recommended that the
and (2) identify loan program, portfolio, and data reli-           Agency include an analysis of industry codes as part
ability issues warranting attention by the Agency.                 of its monitoring system to identify areas of financial
                                                                   risk.1 Subsequently, a 2011 OIG audit identified that
While conducting the evaluation and discussing our                 the five worst-performing franchises had purchase
analysis and results with Agency officials, we ques-               rates over 22-percent.2 Additionally, OIG survey work
tioned whether the Agency had established a program                completed in 20113 included analysis of 79 change-of-
that analyzed risk across its $103 billion portfolio.              ownership loans disbursed from FY 2006 to 2009 and
Therefore, we developed a reporting objective that                 found that nearly 30-percent were problem loans.4
sought to determine if the Agency had developed a                  Further, the OIG investigations division has identified
portfolio risk-management program that sufficiently                hundreds of millions of dollars5 of fraud related to
monitored and addressed risk across lines of business,             loan agents. Finally, fraudulent statements regarding
participating lenders, and the overall portfolio.                  equity injections (payments required by borrowers
                                                                   seeking SBA financing) continue to be a significant
To accomplish our objectives, we obtained SBA 7(a)                 and recurring problem.
loan portfolio data from Fiscal Years 2003 to 2012.
We examined the default rate of 7(a) loans by fran-                7(a) Program Loans
chise and industry to identify potentially high-risk
areas. We conducted interviews with Agency officials               The SBA is authorized under Section 7(a) of the Small
to present our analyses and determine existing con-                Business Act to provide financial assistance to small
trols to mitigate risk across the SBA’s $103 billion               businesses in the form of government-guaranteed
guaranteed loan portfolio. We performed basic data                 loans. The SBA's 7(a) loans are made by participating
reliability tests to assess the reasonableness of data for         lenders under an agreement to originate, service, and
the purposes of this evaluation. Our scope and meth-               liquidate loans in accordance with SBA's rules and
odology are further detailed in Appendix I of this re-             regulations and prudent lending standards. Although
port.                                                              the SBA has many loan programs, the 7(a) loan pro-
                                                                   gram is the largest. As of September 30, 2012, the SBA
We conducted this evaluation from March 2012                       had over $46 billion in guaranteed 7(a) loans out-
through February 2013, in accordance with the Coun-                standing in its portfolio.
cil of the Inspectors General on Integrity and Efficien-
cy (CIGIE) Quality Standards for Inspection and Evalu-             Most of the 7(a) loans are made by lenders using dele-
ation. These standards require that we adequately                  gated authority. These lenders are delegated the au-
plan inspections, present all factual data accurately,             thority to process, close, service, and liquidate most
fairly, and objectively, and that we present findings,             SBA guaranteed loans without prior review.
conclusions, and recommendations in a persuasive                   If a guaranteed loan defaults, the Lender and the
manner.

1 Audit Report 4-37, Memorandum Report Survey of Risk Management by Industry Code, issued August 11, 2004.
2 Audit Report 11-16, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating Huntington Learning
Center Franchise Loans, issued July 13, 2011.
3 OIG Project Number 10015 – Oversight of Change of Ownership Transactions. The work performed for this project has not been
published.
4 ‘Problem loans’ refers to loans that were delinquent, defaulted, charged off, liquidated, or purchased.
5 SBA Information Notice, Control No. 9000-1793 Issued, April 7, 2009, Detecting Fraud in Small Business Administration Lending
Programs.


                                                               4
Agency share in the loss, if any, in accordance with                 FY 2013 include the need for SBA to: (1) Expand the
the percentage guaranteed by the SBA. Upon loan                      scope of lender oversight and improve the process for
default, the lender generally requests payment of the                reviewing lenders and Certified Development
guaranty from the SBA. The SBA reviews the lender's                  Companies,8 and (2) Monitor and verify implementa-
actions on the loan to determine whether it is appro-                tion of corrective actions to ensure effective resolution
priate to pay the lender the guaranty, which the SBA                 prior to close-out.
refers to as a guaranty “purchase."
                                                                     Importantly, the Agency has included risk manage-
Defaulted 7(a) loans increase the risk to the Agency                 ment as part of its FY 2011-2016 Strategic Plan.
and taxpayers as the SBA disburses funds to the lend-                One of the Agency’s strategic objectives is to mitigate
ers to purchase its guaranties. In FY 2012, the Agency               risk to taxpayers and improve oversight across SBA
purchased more than 14,000 loans for over $1.3 billion               programs. In 2012, the Agency’s Office of Credit Risk
from the 7(a) program.                                               Management (OCRM), whose mission is to maximize
                                                                     the efficiency of SBA’s lending programs by effectively
Risk Management                                                      managing program credit risk, reorganized and estab-
                                                                     lished new practices to improve oversight.
Balancing the need to ensure access to capital for
small businesses that cannot qualify for traditional
bank loans with the need to mitigate default risk is a
key part of the Agency’s mission. Therefore, the SBA
is authorized by Congress to supervise, examine,
regulate, and enforce laws against SBA lenders.
Congress requires the Agency to perform annual re-
views of delegated lenders in the Preferred Lenders
Program (PLP)6, and the Agency is authorized to
assign risk ratings to its lenders. Additionally, the
Office of Management and Budget (OMB) requires
Federal Agencies that operate credit programs, to
analyze and control the risk and cost of their pro-
grams. This includes collecting data such as default
rates, purchase rates, and recovery rates for program
performance measures.

The SBA’s Office of Inspector General (OIG) has
identified the need to improve lender oversight as
one of the key challenges facing the Agency.7 Alt-
hough the Agency has recently made significant pro-
gress, the need to improve oversight has been a criti-
cal issue for more than a decade. Actions recom-
mended by the OIG to address this challenge during



6 PLP lenders are delegated with the authority to process, close, service, and liquidate most SBA guaranteed loans without prior SBA
review.
7 Report Number 13-02 issued October 15, 2012. Management Challenge 5 – The SBA needs to further strengthen its oversight of lend-
ing participants in Report on the Most Serious Management and Performance Challenges Facing the Small Business Administration in
Fiscal Year 2013.
8 Certified Development Companies (CDCs) are non-profit corporations certified and regulated by the Small Business Administra-
tion to package, process, close, and service 504 loans.


                                                                 5
Results


While the Agency recognizes the need for broad-
based portfolio management, and has recently taken
steps to broaden its risk management efforts, in the                     The SBA’s Portfolio Risk-Management Program
course of our review, we determined that the SBA                                      Can be Strengthened
had not implemented a program or process to effec-
tively monitor risk in its portfolio. It also had not
developed a policy to ensure identified risks were                     With a focus on lender risk, the SBA did not evaluate
addressed. We conducted four separate meetings                         its portfolio in terms of other financial and mission
between July 5, 2012, and February 6, 2013, with key                   risks, such as identifying risky portfolio segments
senior officials in the Office of Capital Access (OCA)                 based on default statistics. Based on information
to discuss the results of the analyses presented in this               obtained from OCA officials, in a series of meetings,
report. During these meetings, the SBA officials in-                   we determined that the SBA was not regularly as-
formed us and corroborated that there had been no                      sessing the 7(a) loan program and portfolio level risk
consistent risk analysis of the portfolio. Further, offi-              in terms of the financial and mission risks. Addition-
cials stated that the Agency had not yet established a                 ally, based on the information obtained in these
framework or process for portfolio risk management,                    meetings, we also determined that the SBA had not
even though risk management and improved pro-                          developed a policy for addressing identified portfolio
gram oversight was part of the Agency’s Strategic                      risks.
Plan, and the OCRM’s mission. In August 2012, when
our evaluation was ongoing, the Agency developed a                     Although the Agency monitors risk at the lender lev-
formal plan to ensure program credit risk is effective-                el, it had not established a program to analyze risk
ly managed. The SBA has not yet implemented this                       across its $103 billion portfolio. Without a fully ro-
plan.                                                                  bust portfolio risk-management program, the Agency
                                                                       is exposed to both financial risk and mission risk.9
During our review, we performed limited analysis of                    Specifically, the Agency may incur unnecessary losses
franchise and industry loan data which highlighted                     for taxpayers if it continues guaranteeing loans across
the types of risks that can be identified with a robust                portfolio segments without monitoring risk, and
portfolio risk-management program. Based on our                        where necessary, implementing controls to mitigate
interviews with SBA officials, we determined that the                  the risk of loan default. Additionally, the SBA may be
Agency did not monitor franchise risk or industry                      unable to fully meet its mission of helping Americans
risk at the portfolio level and did not implement con-                 start, build, and grow businesses if it cannot ensure
trols to mitigate this risk.                                           that its core programs are high-performing, effective,
                                                                       and relevant. The SBA, itself, recognizes the im-
                                                                       portance of monitoring financial and mission risks.
                                                                       For example, on its public website, the SBA high-
                                                                       lights that the OCA balances the need to make capi-
                                                                       tal available to small businesses with the importance
                                                                       of providing appropriate monitoring and oversight to
                                                                       protect taxpayer dollars and ensure its programs re-
                                                                       main strong.




9 For the purposes of this report we define financial risk as credit risk that exposes the Agency to potentially significant losses. We
define mission risk as the risk that the Agency will be unable to help Americans start, build, and grow businesses.




                                                                   6
During our review, we performed limited testing of franchise and industry segments that identified areas of poor
performance and increased risk of loss, which may require mitigating controls. These serve as examples of the
types of risks that could be identified with a robust portfolio risk-management program. Our limited analysis
identified three high-volume franchises10 with historical default rates of at least 46-percent, default values11 over
38-percent and loss rates12 over 18-percent. See Appendix II for detailed default rate information. In comparison,
similarly sized franchises had average default rates of 26-percent, average default values of 22-percent, and aver-
age loss rates of 7-percent. We determined that over the 2002-2009 period that we reviewed, nearly 1,000 SBA
7(a) loans were disbursed to these three franchises, totaling $199 million. Of these loans, 501, representing $84
million in Agency guaranties, defaulted and approximately $39 million in SBA guaranties were charged-off.
When presenting Agency officials with our preliminary findings, we determined that the SBA did not analyze risk
at the franchise level for its portfolio. As a result, the SBA continued to guarantee loans to the identified fran-
chises without implementing additional controls to offset the risk of loss. In FY 2012, additional 7(a) loans were
made to each of these franchises.



High-Volume Franchises

 Franchise                           Default          Default Rate         Loss Rate
                                     Rate             Value of             (SBA Charge-offs)
                                     # of Loans       Loans
 Planet Beach                             61%                49%                           21%
 Petland                                  60%                49%                           23%

 Cold Stone Creamery, Inc.                46%                39%                           18%
Source: OIG Analysis of SBA 7(a) loan portfolio data for loans issued October 1, 2002 to May 25, 2009.


Our analysis also identified five high-volume retail industries13 with historical default rates of at least
40-percent, default values over 30-percent and loss rates over 16-percent. This compared with average high-
volume industry default rates of 32-percent, default values of 23-percent, and loss rates of
10-percent.

We determined that over the 2002-2009 period that we reviewed, 10,529 SBA 7(a) loans were disbursed to these
five industries, totaling $860 million. Of these loans, 4,415, representing over $300 million in Agency guaranties,
defaulted and approximately $150 million in SBA guaranties were charged-off. We also determined that poor per-
formance within these industries did not appear to be concentrated among particular SBA lenders. Nevertheless,
we recognize that further portfolio analyses could help determine root causes for poor performance. We note
that in FY 2012 alone, the Agency approved 792 loans worth $182 million to the five retail industries.

10 For the purposes of this report we defined ‘high volume franchises’ as franchises that received 50 or more loans and approval
amounts of $25 million or more within the time period reviewed.
11 Default values represent the SBA’s share of defaulted loan dollars as a percentage of SBA’s share of loan dollars approved.
12 Loss rates represent the SBA’s share of defaulted loan dollars charged off as a percentage of SBA’s share of dollars approved and
disbursed.
13 For the purposes of this report we defined ‘high volume industries’ as industries with 1,000 or more loans and approval amounts of
approximately $50 million or more within the time period reviewed.




                                                                   7
We recognize that the SBA is a critical source of fi-               of the SBA’s Office of Capital Access, responsible for
nancing for small business franchises and small retail              managing the Agency’s guaranteed loan programs,
businesses, and that the franchises and businesses                  states in part, that it must “balance the need to make
identified in our evaluation represent small segments               capital available to small businesses with the im-
of the SBA’s overall portfolio. However, based on our               portance of providing appropriate monitoring and
limited analysis, we believe these franchises and indus-            oversight to protect taxpayer dollars and ensure its
tries may exceed reasonable risk-tolerance default                  programs remain strong.” Finally, the OCRM’s mis-
thresholds and may require mitigating controls. Im-                 sion is to maximize the efficiency of SBA’s lending
portantly, we note that these are simply examples of                programs by effectively managing program credit
the type of risk that could be identified with a robust             risk, monitoring lender performance, and enforcing
portfolio risk-management program.                                  lending program requirements.

                                                                    Importantly, in August 2012, the SBA drafted an An-
                                                                    nual Audit Plan Framework designed to address risk
      The Agency’s Strategic Plan Stresses the
                                                                    across all of the Agency’s lending platforms. We
            Need to Improve Oversight
                                                                    believe the plan represents a first step towards estab-
                                                                    lishing a program that will monitor portfolio risks,
                                                                    and where necessary, address the types of portfolio
                                                                    risks identified in our evaluation. However, the SBA
OMB policy governing federal credit programs directs                only recently finalized this plan and has yet to imple-
agencies to prepare comprehensive reports on the sta-               ment this plan.
tus of loan portfolios and receivables to evaluate man-
agement effectiveness. Further, the OMB require-
ments14 state that agencies should collect data for pro-
                                                                        The SBA Focused on Loan Volume and Loan
gram performance measures (such as default rates,
purchase rates, recovery rates, and administrative                        Program Loss Rates Without Sufficient
costs) consistent with the Government Performance                         Consideration of Loan Program Risks
and Results Act of 1993 (GPRA). In addition, agencies
are required to publish strategic plans that include
general goals and objectives, including outcome-                    The SBA helps Americans start, build, and grow busi-
oriented goals, for the major functions and operations              nesses primarily by providing access to capital. By
of the agency.                                                      law, borrowers can only receive financial assistance
                                                                    from the SBA if they do not qualify for traditional
The SBA recognized the need for broad-based portfo-                 commercial loans. As a result, the Agency’s emphasis
lio management as part of its FY 2011-2016 Strategic                is on providing capital to small business borrowers in
Plan. One of the objectives in its Strategic Plan is to             need of SBA’s assistance. Consistent with this goal,
strengthen SBA’s core programs and operations to                    Agency management officials informed us that the
ensure that they are high performing, effective, and                evaluation of program performance has traditionally
relevant to the needs of the small business communi-                focused on loan approval volume and loss rates with
ty. Some of the strategies the SBA has planned to                   risk being assessed at the lender level.
meet this objective are to provide robust performance
and financial management information, conduct pro-                  The focus on loan approval volume is demonstrated
gram reviews, and maintain a rigorous internal control              in statistics presented in its FY 2012 Annual Financial
process. Another objective within the SBA’s Strategic               Report (AFR). The AFR highlights SBA loan approval
Plan is to mitigate risk to taxpayers and improve over-             volume and not loan performance. Additionally, in
sight across SBA programs. Additionally, the mission                terms of loss, the Agency has worked to operate its


14 Office of Management and Budget Circular No. A-129 Policies For Federal Credit Programs and Non-Tax Receivables.


                                                                8
loan programs at “zero subsidy.” That is, any losses           As noted above, the Agency has begun to take steps to
within the program are offset by lender fees, loan             analyze and manage portfolio risk. In August 2012, the
recoveries, and loan repayments rather than an ap-             SBA drafted an Annual Audit Plan Framework designed
propriation from Congress. Therefore, according to             to address risk across all of the Agency’s lending plat-
SBA officials, SBA has traditionally focused on the            forms. The plan, which was recently finalized, requires
overall program losses rather than other performance           analyses designed to provide a comprehensive view of
statistics, including loan defaults.                           the SBA’s overall portfolio by lender, industry, delivery
                                                               method (i.e. type of loan program), geography, fran-
Further, the SBA’s traditional risk focus has been at          chise, and other components. We note that the plan
the lender level. The majority of 7(a) loans are dis-          stressed the need to analyze delinquent and defaulted
bursed by lenders using delegated authority. These             loans as a critical part of managing risk. Specifically,
loans undergo little, if any, review by the SBA prior to       the plan states:
loan approval. The Agency is required by Congress
to review the performance of delegated lenders annu-              A defaulted and past due analysis is crucial to under-
ally. To monitor lender performance, the Agency has               standing risk and is made up of a balance sheet in-
created a risk-rating system that evaluates portfolios            cluding a comprehensive data' set of all loans that are
of individual lenders, and the OCRM is responsible                defaulted and/or past due. The data should be used
for conducting hundreds of off-site and on-site re-               to target areas of highest loss, identify defaulter char-
views of lenders each year.                                       acteristics, and focused on early default statistics.

The OCRM’s funding structure has also contributed              The goal of the plan is to help the OCRM maximize the
to a risk focus at the lender level. Funding to con-           efficiency of the Agency’s lending programs by effec-
duct risk review activities is based on the fees               tively managing program credit risk, monitoring lender
charged to lenders. According to Agency officials,             performance, and enforcing lender program require-
the OCRM did not have the funding to conduct over-             ments. Implementation of the plan is pending.
all portfolio monitoring activities such as assessing
the risks of poor performing franchises and indus-
tries. Additionally, because the SBA was not regular-
ly assessing portfolio level risk, it had not developed
a policy to address identified portfolio risks. Overall,
there are a number of historical and financial reasons
contributing to the Agency’s lack of an established
portfolio risk-management program.

As previously noted, with a focus on lender risk, the
SBA did not evaluate its portfolio in terms of other
financial and mission risks, such as identifying risky
portfolio segments based on default statistics. The
SBA’s focus on approvals and loss at the program
level can be better balanced with the Agency’s mis-
sion of helping its individual borrowers start, build,
and grow small businesses and its other strategic
objectives. We believe that if the Agency continues
to guarantee loans to poorly-performing segments
without appropriate controls in place, it risks not
fully achieving its mission and objectives.




                                                           9
Conclusion                                                     Recommendations

Lack of an established portfolio risk-management           We recommend that the Office of Capital Access:
program at the SBA exposes the Agency to both fi-
nancial and mission risks. The SBA will continue to        1) Implement a portfolio risk-management program
realize defaults and incur losses on loans to poorly          that analyzes risk across portfolio segments.
performing segments within its portfolio if it does
not implement a process to consistently monitor            2) Use data from the portfolio risk-management pro-
portfolio risks and establish mitigating controls            gram to support risk-based decisions in its loan pro-
where necessary. Additionally, the SBA may be una-           grams.
ble to fully meet its mission of helping Americans
start, build, and grow businesses if it cannot ensure      3) Develop a process within the portfolio risk-
that its core programs are high-performing, effective,        management program to ensure additional controls
and relevant. Importantly, our analysis focused on            are implemented to mitigate identified risks where
two small segments that represented unmanaged risk            necessary.
to the Agency. Given the potential that other risk
areas exist, an effective portfolio risk-management
program is needed to identify weaknesses and help
the Agency better manage its overall financial and
mission risk. An established portfolio risk-
management program could help the Agency achieve
a better balance between the need to make capital
available to small businesses while mitigating risk for
borrowers and taxpayers.




                                                          10
Agency Comments & OIG Response


On April 25, 2013, we provided a draft of this report to the Associate Administrator for Capital Access, Director of
the Office for Credit Risk Management, and Director of the Office of Performance and Systems Management for
comment. On June 4, 2013, the Agency submitted formal comments, which are included in their entirety in Ap-
pendix III. A summary of management’s comments and our response follows.

General Management Comments
The Agency agreed with all of our recommendations and stated it had taken steps to address many of our con-
cerns. Specifically, in November 2012, the Agency reorganized its Office of Capital Access to establish the Office
of Performance and Systems Management (OPSM), which along with the Office of Credit Risk Management
(OCRM), is dedicated to facilitating and managing a portfolio risk-management program. The OPSM now pro-
duces regular reports that analyze performance and risk across various portfolio segments. Further, OPSM has
also provided analytics to support risk-based decisions in the OCA. The OCRM has reengineered its lender re-
view program to better assess risk, monitor lenders, and benchmark performance thresholds. In addition, the
OCRM recently drafted an Annual Audit Plan Framework that will be used by the OCA to monitor portfolio risk
and refine its risk-management practices. The OCA advised that it recognizes the importance of effective portfo-
lio risk management and is developing a robust risk management program.

OIG Response
We commend the Agency’s OCA on its recent efforts to improve its risk-management activities. We briefed the
Agency on the specific issues discussed in this report between July 2012 and October 2012, including our identifi-
cation of industry and franchise risks for SBA loans. At that time, management officials acknowledged the issues
and stated they were in the process of drafting its first annual risk management plan, which it subsequently final-
ized while our review was ongoing. The OPSM provided the Agency with useful insight into SBA programs and
policies for a number of new program developments. We have revised the report to reflect the Agency’s actions
in establishing the OPSM in November, 2012. By February 2013, the Agency was performing analyses to identify
major risk areas and conducting reviews to test its first annual risk management plan. While the SBA has made
significant progress and recognizes the importance of effective portfolio risk management, the Agency is still in
the process of developing a robust portfolio risk-management program, and utilizing analytical insights on a reg-
ular basis to reduce overall portfolio risk.

Recommendation 1

1. Implement a portfolio risk-management program that analyzes risk across
portfolio segments.

Management Comments
The OCA agreed with this recommendation. The Agency stated that it is continuously improving its portfolio
risk-management program. The Agency identified efforts by the recently established OPSM to analyze and report
risk across portfolio segments, as well as recent developments by the OCRM to improve analyses of lender perfor-
mance across portfolio segments. The Agency stated it will continue refining its practices to improve its portfolio
risk-management program.




                                                         11
OIG Response
Management comments were responsive to the recommendation.


2. Use data from the portfolio risk-management program to support risk-based
decisions in its loan programs.
Management Comments
The OCA agreed with this recommendation. The Agency stated that it uses data from its portfolio risk-
management program to support risk-based decision making for all program development and policy change
decisions. The Agency cited recent and ongoing program developments where risk analytics have played an
important role. The Agency stated that the OCA will continue to explore new uses of data to improve SBA
program management.

OIG Response
Management comments were responsive to the recommendation.

3. Develop a process within the portfolio risk-management program to ensure
additional controls are implemented to mitigate identified risks where neces-
sary.
Management Comments
The OCA agreed with this recommendation. The Agency stated that the OCRM, and the recently established
OPSM, both play key roles in all program and policy initiatives to ensure that program decisions are supported
by data and sound risk management practices. In addition, the Agency stated that it is working to develop an
annual risk management cycle that will analyze risk across several portfolio segments at the beginning of each
year and use these findings to drive lender review and program management decisions for that year.

OIG Response
Management comments were responsive to the recommendation.

Actions Required

Please provide your management decision for each recommendation on the attached SBA Forms 1824, Recom-
mendation Action Sheet, within 30 days from the date of this report. Your decision should identify the specific
action(s) taken or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this evaluation. If
you have any questions concerning this report, please call me at (202) 205-7390 or Terry Settle, Director, Cred-
it Programs Group, (703) 487-9940.


                                                        12
Appendix I: Scope and Methodology

To accomplish our objective, we collected data from the SBA’s Loan Accounting System (LAS) for all 7(a) loans
issued from FY 2003 to 2012. We used IDEA data analysis software to run queries on the data extracted from the
LAS. Specifically, we examined the default rates of 7(a) loans by franchise and industry to identify potentially
high-risk areas. For the default rate analysis, we established a May 2009 cutoff date to avoid counting unseasoned
loans. This yielded a universe of 471,663 loans in the 7(a) program issued from October 1, 2002, to May 25, 2009,
totaling $75.3 billion. We then stratified the data by loan volume and dollar amount to better analyze the impact
of defaults. For both franchises and industries, we examined default rates by loan volume (the number of records
of loan default), the dollar amount of defaults, and charge-off rates (i.e. loss amounts).

For franchises, we focused on the top 20 franchises by default rate with at least 50 loans in the 7(a) program, and
the top 20 franchises by default rate with at least $25 million in 7(a) loans. For industries, we focused on the top
20 industries by default rate with at least 1,000 loans in the 7(a) program and the top 20 industries by default rate
with at least $50 million in loans. For the industry analysis, we also eliminated specific industries whose poor
performance appeared to be caused largely by the recent economic recession. Finally, we narrowed the results by
selecting the franchises and industries that appeared on both top 20 lists (number of records and dollar of de-
faults).

To verify the reliability of the collected data, we discussed data system controls with SBA officials, obtained relat-
ed technical specifications documents, and conducted independent tests on the data. Specifically, we interviewed
Agency officials about the controls and control environment for the SBA Mainframe system and Mainframe Ex-
tract Process, the Electronic Loan Information Processing System (ELIPS), and Electronic Transfer System (E-
TRAN). We also conducted basic completeness and error testing for loan fields relevant to our default rate analy-
sis.

We also reviewed the SBA’s FY 2011 – 2016 Strategic Plan and mission statements for offices responsible for man-
aging the 7(a) loan program and its risks. Finally, we conducted interviews with Agency officials to present our
analyses and determine existing controls to mitigate risk across the SBA’s $103 billion guaranteed loan portfolio.




                                                          13
Appendix II: High-Volume Franchises


                                                                                                            Default     Loss
                                                                  SBA                            Default      Rate      Rate
                   Number         Number         SBA           Portion of      SBA Portion         Rate      Dollar     (SBA
                     of              of        Approved        Defaulted        of Dollars       Number     Value of   Charge-
 Franchise        Approvals       Defaults      Dollars         Dollars        Charged-Off       of Loans    Loans      offs)
 PLANET
                      226            137       $38,735,335     $19,078,487       $8,321,199         61%       49%       21%
 BEACH
 PETLAND               72            43        $29,124,574     $14,403,079       $6,586,539        60%        49%       23%
 COLD
 STONE
                      700            321       $131,073,296    $50,787,407      $24,235,397        46%        39%       18%
 CREAMERY,
 INC.

Source: OIG Analysis of SBA 7(a) loan portfolio data for loans issued October 1, 2002, to May 25, 2009.




                                                                   14
Appendix III: Agency Comments—SBA Office of Capital Access


                                     U.S. SMALL BUSINESS ADMINISTRATION
                                           W ASHINGTON, D.C. 20416




To:        John K. Needham
           Assistant Inspector General for Auditing
From:      Jeanne Hulit
           Associate Administrator, Office of Capital Access
           Brent Ciurlino
           Director, Office of Credit Risk Management
           Steve W. Kucharski
           Director, Office of Performance and Systems Management


Subject:   Response to Draft Report on Analytical Review of the Small Business Admin-
           istration’s Loan Data, Project No. 12009A


Executive Summary
The Office of Inspector General (OIG) states that the agency has not implemented a
program or process to effectively monitor risk in its loan portfolio or to ensure that
identified risks are addressed. OCA agrees with the importance of monitoring and
managing risk to SBA’s loan programs and has taken significant steps to improve its
portfolio risk management program.
Response to Draft Report
The Office of Capital Access is building a robust portfolio risk management program.
OCA takes portfolio risk management seriously. In November 2012, OCA completed
reorganization and now has two offices dedicated to facilitating and managing a port-
folio risk management program: the Office of Performance and Systems Management
(OPSM) and the Office of Credit Risk Management (OCRM). This reorganization was
completed in response to recognized challenges facing the SBA in terms of financial
and mission risks, and will help the Agency better serve the needs of small businesses,


                                             15
and effectively oversee lender and portfolio performance.


Office of Performance and Systems Management
The Office of Performance and Systems Management’s mission is to supply SBA leader-
ship and stakeholders with business intelligence, sound project management, and criti-
cal information systems for the purpose of initiating, maintaining, evaluating, and im-
proving loan programs and initiatives.


OPSM responsibilities include:
   Assist in program and policy development

   Evaluate, reassess, and improve programs based on performance metrics

   Provide metrics and data to support policy decisions, and regulatory and policy
    changes

   Produce standardized data and reporting for the Office of Capital Access

   Manage critical SBA information systems

OPSM produces weekly, monthly, and quarterly reports that analyze performance and
risk across various portfolio segments to support OCA program offices. For example,
the weekly ‘Performance Dashboard’ monitors performance of the 7(a), 504, Microloan,
and Surety Bond programs. Risk and performance are segmented based on loan size,
lender, region, and delivery method based on OCA stakeholder needs. The monthly
‘PAC Report’ provides stakeholders balance sheet and cash flow information to monitor
the outstanding 7(a) and 504 portfolios. Risk is further broken down in terms of origi-
nation, servicing, and resolution risk. Both reports are continuously updated based on
the needs of OCA management.
OPSM provides data-driven insight to all program and policy initiatives. Several exam-
ples demonstrate how OPSM analytics support risk-based decision making in OCA:
       CAPLine Reinvigoration – In November 2011, SBA revamped its CAPLine pro-
       gram to reach more small businesses that needed working capital. OPSM pro-
       vided OCA policymakers with extensive analysis on the performance of CAP-


                                           16
   Lines and revolving lines of credit, which demonstrated that these loans often de-
   fault when they enter the term out stage. This data supported changes to the
   rules around refinancing working capital under the CAPLine program.

SLA 2.0 – In June 2012 SBA launched SLA 2.0 to increase its lending and creditworthi-
   ness of loans under $350,000. OPSM worked with OCA extensively to demon-
   strate that term loans under $350,000 perform similarly whether the lender fol-
   lows SBA’s guidelines for the conventional 7(a) program versus a lender’s own
   policies and procedures under the SBA Express program. This analysis proved
   that SBA could lower transaction costs for loans under $350,000 without adding
   financial risk to SBA’s programs. These program changes have supported SBA’s
   mission by making it easier for lenders to reach underserved markets with loans
   under $350,000.

SLA 2.0 – Additionally, OPSM performed extensive analysis on the performance of
   small dollar loans based on the Small Business Predictive Score (SBPS) at time of
   disbursement. This data demonstrated that SBPS scores were a highly reliable
   predictor of future default and loss to SBA. Further, the analysis showed that re-
   quiring borrowers to meet a minimum credit score for SBA eligibility would have
   vastly reduced historical losses in small dollar lending programs such as Commu-
   nity Express. OPSM’s analysis supported the implementation of a risk manage-
   ment control that restricts lending to businesses with SBPS credit scores below
   140.

SBA One – OPSM is heavily involved with OCA’s ongoing SBA One initiative. In ad-
   dition to lowering the cost of doing business with SBA, one important purpose of
   SBA One is to create a document management system that will enhance OCA’s
   ability to collect loan documentation at origination, including collateral and loan
   agent data, at origination. This initiative aims to provide OPSM and OCRM a
   strong tool to manage program risk and facilitate access to loan documentation
   to inform decisions concerning program risk.




                                         17
Office of Credit Risk Management

OCRM’s mission is to promote confidence in the integrity of SBA’s credit programs
through proactive risk assessment, risk management strategies, and stakeholder com-
munications.


OCRM responsibilities include:
   Establish and maintain processes for proactive lender oversight and risk manage-
    ment

   Develop risk mitigation procedures

   Conduct lender risk modeling

   Maintain quality assurance standards and controls for comprehensive risk manage-
    ment

   Recommend and implement supervisory and enforcement actions when appropri-
    ate.

OCRM has utilized SBA’s loan portfolio data to identify SBA’s riskiest lenders since
2002. For FY 2013 and 2014, OCRM has identified approximately 300 high risk SBA
lenders that will be assessed using OCRM’s new review protocol. These lenders ac-
count for 70% of the outstanding SBA portfolio. OCRM also plans to align delegated
authority reviews with its risk-based reviews when possible. An additional 1,700+ lend-
ers with delegated authority, accounting for 22% of the SBA portfolio, will receive dele-
gated authority reviews.

OCRM’s new 7(a) PARRiS and 504 SMART review protocols leverage SBA performance
data to create advanced metrics, which will isolate lender/CDC behaviors that drive
risk to the SBA. For each PARRiS and SMART rating component, OCRM has identified
a set of risk metrics that will measure risk to SBA. Benchmarks for each metric are in
final development and will define SBA’s risk appetite by defining preferred, acceptable,
and less than acceptable lender behavior, and improve communication to the SBA
lending community. OCRM is currently in the process of performing developmental



                                            18
reviews to further refine the PARRiS and SMART review processes. PARRiS and
SMART will assist OCRM in identifying high risk lenders and ensuring that lender
oversight drives meaningful review activities, findings, and corrective actions that re-
duce risk to the SBA.




OCRM has engaged in a rigorous updating (from 2008-2012) of the Lender Risk Rating
Model resulting in significant adjustment of variables and measurement of risk rating
applied to lenders and CDCs. Additionally, OCRM has engaged in a detailed bench-
marking analysis project that will serve to establish quantitative performance metrics
and indicators of quality (Preferred, Acceptable and Less than Acceptable) to be incor-
porated into each area of risk assessment identified in the PARRiS and SMART proto-
col measurement attributes. Further, as stated in the OIG’s report, OCRM has also
drafted an Annual Audit Plan Framework for OCA that will be used to monitor portfo-
lio risk and refine OCA’s risk management practices on an annual basis. This annual
analysis will inform both OCRM’s lender reviews and OCA’s policy decisions and SOP
changes.
Conclusion
In the draft report, the OIG states that their limited analysis “determined that the SBA
had not implemented a program or process to effectively monitor risk in its loan port-
folio” and that SBA “had not developed a policy to ensure identified risks were ad-
dressed.” The Office of Capital Access recognizes the importance of effective portfolio
risk management. OCA devotes significant time and resources to portfolio analysis
and is developing a robust risk management program.
OCA Management’s response to the recommendations in the draft report is noted as
follows:
1. Implement a portfolio risk-management program that analyzes risk across
portfolio segments.


                                            19
OCA concurs with this recommendation. OCA is continuously improving its portfolio
risk-management program to better manage SBA portfolio risk. OPSM generates
weekly, monthly, and quarterly reporting that analyzes risk across portfolio segments
such as loan size, lender, delivery method, credit score, and region and breaks down
origination, servicing, and resolution risk. OCRM has developed 7(a) PARRiS and 504
SMART review protocols designed to analyze lenders’ performance and risk across nu-
merous portfolio segments. OCA will continue refining its reporting and review proto-
cols to improve its portfolio risk-management program.
2. Use data from the portfolio risk-management program to support risk-based
decisions in its loan programs.
OCA concurs with this recommendation.
OCA uses data from its portfolio risk-management program to support risk-based deci-
sion making for all program development and policy change decisions. Risk analytics
have played an important role in recent projects including CAPLine reinvigoration,
SLA 2.0, and SBA One. OCA will continue to explore new uses of data to improve SBA
program management.
3. Develop a process within the portfolio risk-management program to ensure
additional controls are implemented to mitigate identified risks where neces-
sary.
OCA concurs with this recommendation.
OPSM and OCRM both play key roles in all program and policy initiatives to ensure
that program decisions are supported by data and sound risk management practices.
OCA is further working to develop an annual risk management cycle that will analyze
risk across several portfolio segments at the beginning of each year and use these find-
ings to drive lender review and program management decisions for that year.
Thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.




                                           20
